TABLE OF CONTENTS

VISA® Cardholder Agreement

Introduction

Page 1

Fees and Charges

Page 2

Interest Charges

Page 2

Account Features

Page 3

Payments

Page 3

Default

Page 3

Other Important Information and Terms

Page 4

Your Billing Rights

Page 5

CARDHOLDER AGREEMENT
INTRODUCTION: In this document, the term “Agreement” means this Cardholder Agreement and the disclosures found in our “Important Cost Information about our Credit Card” insert that is included with your card carrier when your Card plastic is sent to you. In this Agreement,
we call this “Important Cost Information” insert our “Account Opening Disclosures.” The terms “we,” “us” and “our” refer to UMB Bank, n.a., which is your credit card issuer. The terms “you” or “your” mean each person who applies for a credit card that is used primarily for
personal, family or household purposes, either as an applicant or a co-applicant, and to whom we issue a credit card pursuant to this Agreement. Those terms also apply to any person who has a current credit card Account with us that was issued primarily for personal, family or
household purposes. Your liability under this Agreement is joint and several, which means that each of you is liable to us for the full balance of the Account and all lawful interest, fees and charges, which may include any costs of collection, including our attorney’s fees.
YOUR PROMISE TO PAY: You are entering into this Agreement with us, under which we agree, subject to the terms and conditions of the Agreement, to lend you money through the use of your Card, and you promise to pay back to us the money that we lend to you,
plus any applicable interest charges and fees, in accordance with these terms and conditions. You borrow under this Agreement when you use a Card, even if you do not sign a purchase slip or other document for the transaction. If you use your Card number without
presenting your actual Card (such as for mail, telephone, or Internet purchases), those transactions will be treated the same way as if you used the Card in person. If you let someone else use your Card, you are responsible for all transactions that person makes with your
Card. Your obligation to repay us is the responsibility of your estate if you die. If you use a Card, you will have accepted this Agreement and agree be bound by it.
OTHER IMPORTANT TERMS USED THROUGHOUT THIS AGREEMENT
The terms listed in the far left column below have the meanings shown under the “What it means” column heading, when they are used throughout this Agreement. The terms and conditions of the Agreement that are directly related to the defined term are included in the
last two columns to the right.
TERM

WHAT IT MEANS

YOUR RESPONSIBILITY

OUR RESPONSIBILITY

“Account”

Your credit card account with us.

You promise to keep your Account in good standing, such as by making your payments
on time, and to comply with the terms of this Agreement as long as your Account
remains open or has a balance.

We will give you access to your Account, up to the amount of your Credit Limit,
through access devices, which may include Cards, checks and/or your Account
number. But we may change your Credit Limit or close your Account as stated in this
Agreement. You may also be able to use your Card through “digital wallets” that we
provide access to or that others provide. There may be additional agreements that
govern the digital wallets.

“Card”

Any credit card associated with your Account, including all renewals and cards that
we may issue to replace your current Card, for example, when you report your current
Card as lost or stolen. The term also means any other access device that we issue to
you that may be used to access your Account to obtain credit, including any Account
number and any Convenience or Cashway Check.

You agree (1) to use your Card only for lawful purposes, (2) not to engage in any illegal
transaction with your Card, and (3) to return the Card to us or destroy it immediately
upon our request.

If you keep your Account in good standing and comply with this Agreement, we
will honor the Card as provided in this Agreement. The Card is and will remain our
property.

Please sign the Card as soon as you receive it. The Card is valid during the dates
provided on the front. You agree to take reasonable steps to prevent the unauthorized
use of your Card and Account.

“Advance”

Any credit that we extend to you through your Account. The term “Advance” includes
a Purchase Advance, a Cash Advance and a Balance Transfer.

You agree to repay all Advances made on your Account, whether you request it or
whether others who you have authorized request the Advance.

We will honor Advances up to your Credit Limit, subject to the terms set forth in this
Agreement. Our obligation to make credit available to you under this Agreement is
discretionary with us, and we may cancel your right to obtain additional Advances at
any time, even if you are not in default. We may decide not to make Advances that
we believe may be fraudulent or for other reasons outlined in the Agreement.

“Authorized User”

Any person that you give the right to use your Card or your Account, but who is not
obligated to repay us for use of the Account.

You will be responsible for an Authorized User’s use of a Card and your Account, as
well as anyone else the Authorized User allows to use the Card or Account. This will be
true even if you did not want, or agree to, the particular use. You will be responsible
to repay all Advances made on your Account by any Authorized User. You may have a
separate agreement with an Authorized User under which the Authorized User agrees
to repay you for use of your Card or Account.

You may ask us to add one or more Authorized Users and to issue an additional Card in
that person’s name on your Account. If we agree to your request, we will need certain
information about the Authorized User to manage your Account. We may limit an
Authorized User’s right to make certain transactions. If we do, we will tell you about
those limitations before adding any new Authorized User on your Account. Once we add
an Authorized User to your Account, we may discuss your Account with that person and
provide that person with Account information. You can cancel the right of an Authorized
User to use your Account by contacting us at the Customer Service number provided
below. We have a reasonable time to act on your request to end an Authorized User’s
access to your Account.

If you want to remove an Authorized User from your Account, you must contact us
as provided on your Statement and request the removal of that person. You also
must immediately destroy all Cards in that person’s possession and cancel any of
the automatic billing authorizations that person made to charge your Account by
contacting those persons. We will not do this for you. Until those arrangements are
cancelled, you are still responsible for all amounts they charge to the Account. You are
responsible even if the charges do not appear on the Account Statement until later.
Authorized Users may remove themselves from the Account by contacting us.

We have a reasonable amount of time after we receive a request to remove an
Authorized User from your Account to remove them. When we do that, we may close
your existing Account and/or issue a new Card with a new Account number.

You agree not to ask for or attempt to obtain any Advance that would cause you to exceed your Credit Limit. You are responsible for keeping track of your Account balances
and your Available Credit. We may still honor transactions above your Credit Limit, but
our honoring of those transactions will not increase your Credit Limit.

We do not permit applicants to request a specific credit limit.

Removing
Authorized Users

“Credit Limit”

The total amount of credit that we are willing to provide to you through your Account.
You will have a lower Cash Advance Limit. See Cash Advances below.

We tell you your initial Credit Limit in the “Important Cost Information” insert that
comes with your Card. We will also show your Credit Limit on your monthly billing
Statement.
We may also increase, decrease, restrict, or cancel your Available Credit at any time. This
will not affect your obligation to repay us in accordance with the terms of this Agreement.

1

Effective 10/1/17

TERM (CONT.)

WHAT IT MEANS (CONT.)

YOUR RESPONSIBILITY (CONT.)

OUR RESPONSIBILITY (CONT.)

“Available Credit”

That part of your Credit Limit that is available at any particular time for additional
Advances.

You may not make or attempt to make Advances that would exceed your Available
Credit.

We disclose your Available Credit to you on your monthly billing Statement, but that
amount may not reflect any Advances that you have asked for but that have not yet
posted to your Account.

“Purchase
Advance”

An Advance for buying goods or paying for services. We also treat your annual fee (if
your Account has an annual fee), return payment charges or documentation charges; and
certain Balance Transfers (as explained below) as Purchase Advances.

You must repay Purchase Advances as required by this Agreement.

We will honor requests for Purchase Advances, assuming that you have Available
Credit at the time that you request a Purchase Advance, subject to the other terms of
this Agreement.

Interest will be charged on Purchase Advances at the “Annual Percentage Rate (APR) for
Purchases” based on the formula shown in your Account Opening Disclosures.
Promotional materials that we provide from time to time in connection with particular
offers, such as Balance Transfer offers, may state that a different interest rate or a
promotional interest rate for a particular period of time will apply, in which case the
promotional materials that we provide with the offer will govern.

“Cash Advances”
and “Cash
Advance Limit”

Advances made for cash or cash like equivalents, such as for wire transfers, money orders,
travelers cheques, and some Balance Transfers (as explained below).
Your Cash Advance Limit is a percentage of your overall Credit Limit. The Cash Advance
Limit is disclosed in your Account Opening Disclosures and on your Statement.

You are responsible for repaying Cash Advances as required by this Agreement. Interest will
be charged on Cash Advances at the “APR for Cash Advances” based on the variable rate
formula shown in your Account Opening Disclosures.

We post each Purchase Advance to your Account as of the transaction date of the
purchase.

We restrict the amount of your overall Credit Limit that can be used for Cash Advances.
We call that limit the “Cash Advance Limit.”
We will honor requests for Cash Advances in accordance with this Agreement,
assuming that you have available credit under your Cash Advance Limit.
We post each Cash Advance to your Account as of the date the funds are advanced.

“Statement”

A detailed itemization of your Account for a monthly billing period. Your Statement
includes information on your transactions, charges, your Balance, Minimum Payment
and Payment Due Date. This Agreement might also refer to your Statement as a “Periodic Statement” or a “Billing Statement.” Your Statement may be only in electronic
form if you have given us consent to send Statements to you in that manner and you
have not revoked that consent by notice to us.

You must review each Statement you receive and tell us about any errors or questions
you have as described in the “Billing Rights Summary” part of your Statement and the
Account Opening Disclosures.
If you do not notify us within sixty (60) days of the date you receive the Statement as
provided in those disclosures, we may assume that all information in the Statement
is correct.

We will send you one Statement for your Account, unless the law does not require or
permit us to send a Statement. Statements will be sent at the end of each monthly
billing period when your Account has a debit or credit balance of more than $1.00, or
if we have charged any Interest or other charges to your Account. Your Statement will
show all transactions billed to your Account during the billing period, along with other
important Account information.
If you have requested statements in electronic format only, we will send a notice of
the availability of the Statement to the email address that you provided to us, and you
will be considered to have received the Statement when we so notify you. You must
sign in to our Online Banking Service to review your Statement.

“Business Day”

Means any day in which UMB offices are open for the processing of payments and
credits. Our Business Days are Monday through Friday, but do not include holidays.

Some of the activities related to your Account, such as days that you can make
payments at our branch offices, or the day on which a change in the interest rate that
applies to your Account is calculated, are determined by our Business Days.

FEES AND CHARGES
FEE

HOW CAN YOU AVOID THIS FEE?

HOW MUCH IS THE FEE AND WHEN IS THE FEE ASSESSED?

Late Payment Fee

You can avoid this fee by paying at least the Minimum Payment Due shown on your monthly billing Statement by the Payment Due
Date shown on the Statement.

We will assess a late charge of $27 if you fail to pay the Minimum Payment Due shown on your monthly billing Statement by the
Payment Due Date. The late charge may be up to $38 if you do not make your Minimum Payment Due by its Payment Due Date
more than once during a six month period. The late charge that we assess will never exceed your Minimum Payment. These fees
may be adjusted as allowed by law.

Returned
Payment Fee

You can avoid this fee by making sure that none of your payments to us on your Account are returned unpaid.

We will charge a Returned Payment Fee if any payment that you make on your Account is returned to us unpaid or dishonored. We
will assess a charge of $27 for the first returned payment. We will assess a charge of $38 for any payment that is returned within six
months of a previous returned payment. These fees may be adjusted as allowed by law.

Annual Fee

If you select an Account with us that has an Annual Fee, it will first be charged when your Account is opened. You can cancel your
Account and avoid the fee for the first year and any subsequent year by notifying us that you want to close your Account within
thirty (30) days after the annual fee appears on your monthly billing Statement.

The amount of the Annual Fee, if any, is disclosed in your Account Opening Disclosures. The fee is charged when your Account is
opened and each year after that.

Document Charge

Keep all the monthly billing Statements, disclosures and notices that we send to you about your Account. This fee will not be
charged for requests for documents in connection with a written notice of a billing error, or when you ask for an additional copy
of your Cardholder Agreement or Account Opening Disclosures. You can get a copy of your billing Statement by using our Online
Banking Service.

If you ask for a duplicate copy of your monthly billing Statement, a check you wrote on your Account or another document related
to your Account, we may impose a charge for sending you the copy, unless prohibited by law. The amount of the fee may change
from time to time. You may call us at (800) 821-5184 for the current amount of the Document Charge.

The information below explains how we calculate and charge interest on your Account.
Variable APRs

INTEREST CHARGES

We determine the Annual Percentage Rates (“APR”s) applicable to the different types of transactions on your Account in the manner described in your Account Opening Disclosures. These APRs are variable, unless the disclosures that we provide to you in connection
with a particular offer say otherwise. This means that your interest rate is calculated by adding a percentage rate (called a “Margin”) to the Prime Rate for a billing period. (In some cases, such as for promotional offers like Balance Transfers, the APR may be fixed for
the period of time specified in the Account Opening Disclosures or the marketing materials that we provide related to the special offer; after the promotional period has ended, the APR will be variable.) When your interest rate is variable, the APR for a category of
transactions (such as Cash Advances or Purchase Advances) may vary from billing period to billing period if the Prime Rate changes. The “Prime Rate” is the highest prime rate published in the “Money Rates” section of The Wall Street Journal print edition. The Prime
Rate used in a billing period to calculate your interest rate is the Prime Rate most recently available as of the 15th day of the previous month, or the next Business Day if the 15th is not a Business Day.
The Margin for Purchase Advances and the Margin for Cash Advances are stated in your Account Opening Disclosures. These Margins will apply to your Account unless we change the Margin after giving you notice as required by law. If we change the Margin that applies,
the new Margin will only apply to new transactions after the effective date of the change. You will generally have at least 45 days notice of the change.

Maximum APR

The maximum interest rate that we apply to your outstanding balances is disclosed on the Account Opening Disclosures that you receive with your Card. However, a minimum interest charge may apply, as set forth in the Account Opening Disclosures; the minimum
interest charge is not included in our calculation of your maximum interest rate
If you are a member of the Armed Forces or a dependent of a member of the Armed Forces, your maximum Annual Percentage Rate is disclosed in the Military Lending Act paragraph below.

Grace Periods

Cash Advances (including Balance Transfers that are treated as Cash Advances): There is no grace period for Cash Advances.
Purchase Advances: Your Payment Due Date is shown on your Statement, and will be at least 25 days after the close of each billing period. You will not be charged a periodic interest charge on new Purchase Advances if you pay your New Balance in full by the Payment
Due Date shown on that Statement. If you do not pay the entire amount of the New Balance by the Payment Due Date, there will be an interest charge assessed on each Purchase from the date the Purchase is made.

Monthly Interest
Calculation

We calculate the monthly interest charge on your Account in the following manner:
First, we calculate the “Average Daily Balance” for each category of transactions (e.g., Cash Advances, Purchase Advances, or Promotional Balances) by doing the following:
We take the beginning balance for that type of transaction each day during the monthly billing period and add any new Advances of that type posted that day and subtract any payments that are applied to the transaction category for that day. This gives us the daily balance for that type
of transaction. We then add up all the daily balances for each transaction type for each day included in the monthly billing Statement, and divide by the total number of days included in the monthly billing Statement. That gives us the Average Daily Balance for each transaction type.
Next, we divide the applicable Annual Percentage Rate by 365. This gives us the “Daily Interest Rate”.
Finally, we multiply the applicable Daily Interest Rate for each type of transaction by the Average Daily Balance for that category of transactions. This gives us the interest charge for each category of transactions.

Minimum Interest
Charge

A Minimum Interest Charge will be assessed to your Account for any billing period in which monthly interest is charged, but the calculated amount of the monthly interest is less than the Minimum Interest Charge. When this occurs you will not be charged the calculated
monthly interest charge, but will instead be charged the Minimum Interest Charge. The amount of the Minimum Interest Charge is shown in the Account Opening Disclosures.

Military Lending
Act

The Military Lending Act provides protections for certain members of the Armed Forces and their dependents (“Covered Borrowers”) for new credit card accounts opened on or after October 3, 2017. The provisions of this section apply only to Covered Borrowers
who open their Accounts after that date. If you would like more information about whether you are a Covered Borrower and whether this paragraph applies to you, please contact us at (888) 615- 2179.
Statement of MAPR: Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependents
may not exceed an Annual Percentage Rate of 36%. This rate must include, as applicable to the credit transaction or account: (1) the costs associated with credit insurance premiums; (2) fees for ancillary products sold in connection with the credit transaction; (3) any
application fee charged (other than certain application fees for specified credit transactions or accounts); and (4) any participation fee charged (other than certain participation fees for a credit card account).
Oral Disclosures: If you are a Covered Borrower and want to hear important disclosures and payment information about your obligations under this Agreement, please call (888) 615- 2179.

2

ACCOUNT FEATURES
The information below shows the features that may be made available to you through your Account, and information about how they work and what the costs and terms of each feature are.
FEATURE

HOW IT WORKS

COSTS AND LIMITATIONS

Balance Transfers

A “Balance Transfer” is an Advance that you use to pay a creditor other than us. You can ask for a Balance Transfer by (1) using an
instrument that we provide you that contains the words “Balance Transfer Check,” “Balance Transfer Request,” “Convenience Check”
or “Cashway Check,” (2) creating an instrument with the same routing and transit information on it as the instruments that we send
you to access your Account, or (3) by calling our Service Center. We may at our discretion in the future add additional ways for you
to obtain a Balance Transfer.

If you obtain a Balance Transfer by using an instrument that we provide you that contains the words “Balance Transfer Check” or
“Balance Transfer Request” or by calling our Service Center, the Balance Transfer will be treated as a Purchase Advance, and the
Balance Transfer Fee shown in the Account Opening Disclosures will apply.

When Balance Transfer checks are sent to other creditors through the mail, there may be a delay in posting the payment to your
account with the other creditor and against your Credit Limit. We will rely on the information about your account with the other
creditor that you supply to us. You may ask us to stop payment on a Balance Transfer request, but it must reach us within enough
time for us to be able to act on the request before the payment is presented to us.
Balance Transfers will be reflected on your monthly billing Statement, but you will not receive the paid instrument with your
monthly billing Statement.

Foreign
Transactions

If you obtain a Balance Transfer through any method not disclosed in the preceding paragraph, including by using an instrument
that we provide you that contains the words “Convenience Check,” “Cashway Check” or by creating an instrument with the same
routing and transit information on it as the instruments that we send you, we will treat the transaction as a Cash Advance, and the
Cash Advance Fee shown in the Account Opening Disclosures will apply. Balance Transfers may post to your Account on or after the
date on which you request the Balance Transfer.
When a Balance Transfer is treated as a Purchase Advance, the amount of the Balance Transfer Fee will be added to the Purchase
Advance daily balance within one Business Day after we process your Balance Transfer Request.
Unless we notify you in ahead of time, you may not use a Balance Transfer to transfer a balance owed from other UMB accounts or
any other company within the UMB organization to your credit card Account.

You may be able to use your Account to receive Advances in a currency other than U.S. dollars. When you do this, Visa USA or other
applicable payment card network will convert the Advance into a U.S. dollar amount. The payment card network will use its currency
conversion procedures in effect when it processes the transactions. The conversion rate in effect on the processing date might differ from
the rate in effect on the transition or posting date. The rate used may vary from the rate the payment card network itself receives.

We will charge the Foreign Transaction Fee shown in the Account Opening Disclosures for any Advance occurring outside the United
States or a U.S. territory. This fee is in addition to any other rates or fees that may apply to foreign transactions, which could be
applied depending on the type of transaction that you engage in outside of the United States or a U.S. Territory.

PAYMENTS
The information below explains how we calculate your required payments, how you may make payments, and how we apply your payments to your Account balances.
Minimum
Payment
Calculation

The Minimum Payment that we will show on your monthly billing Statement will equal:
(1) Any Minimum Payment from the previous monthly billing period that you did not pay, plus
(2) The greater of:
a. $25.00, or
b. The amount of any Late Payment Fee or Returned Payment Fee charged on the monthly billing Statement, or
c. The sum of
i. one percent (1%) of the New Balance, plus
ii. total billed monthly interest charges, plus
iii. any Late Payment or Returned Payment Fees.
The Minimum Payment will never exceed your Account’s New Balance amount.

Sending Us
Payments

Where

All payments that you make to us through the mail must be sent to us at the address for payments shown on your monthly billing Statement. The mailing address for payments is also shown below under “Other Customer Service Information.”
You can also make payments at our Online Banking website, at one of our branch offices, or over the telephone to one of our Customer Service representatives.

When Payments
Are Credited to
your Account

Payments that we receive by 5:00 p.m. on any Business Day at the post office box address on your monthly billing Statement will be credited to your Account as of that day. If the Payment Due Date falls on a non-Business Day, we will treat
any payment received by us at that post office box address by 5:00 p.m. on the next Business Day as being received by us on the Payment Due Date. Payments that do not meet the requirements of this “Sending Us Payments” section may be
subject to a delay in crediting of up to five (5) days after the date of receipt.
When we receive a check in payment on your Account, we will credit the check as a payment to reduce the balance for purposes of calculating the interest you owe, but the full amount of your payment may not be reflected in your Available
Credit for up to ten (10) Business Days, to allow us to be sure that the check is collected.

How

All payments must be payable in U.S. dollars from an account at a U.S. financial institution and otherwise in a form acceptable to us. Payments made with a check drawn on a foreign bank will not be accepted. We do not accept cash payments
through the mail. You may not make payments with using the available credit from your Account or any other credit account with us or any other company within the UMB organization.
Payments made through the mail must include the payment slip that we send you as part of your monthly billing Statement.

Sending Us Checks;
Notice of Electronic
Presentment

When you provide a check as payment, you authorize us to either (1) process the payment as a check transaction or (2) use the information from your check to make a one-time electronic fund transfer (“EFT”) from your deposit account.
When we use information from your check for an EFT, funds may be withdrawn from your deposit account as soon as the same day we receive your payment. If your check is converted into an electronic image it will be collected and returned
electronically.

Availability of Credit
After Payment

We may, at our discretion, delay the availability of credit when you make a payment until we reasonably believe that your payment has cleared. We do not provide you with a notice if we delay replenishing your Available Credit to ensure the collectability of your
payment. If we replenish your Credit Limit before a payment has cleared and a payment is returned to us unpaid, it will reduce your Available Credit, and may result in your Account being in an over-the-credit-limit status.

Payments Marked
with Restrictive
Words, Conditions
or Instructions

Any check or other payment that has restrictive words, conditions, limitations, or special instructions added (including payments marked with the words “Paid in Full” or similar language) and all accompanying communications must be mailed
to and received at P.O. Box 419734, Kansas City, Missouri 64141-6734, and include the phrase “Attn: Payment of Disputed Amount” or words of similar effect in the heading of your letter. If you make your payment or send any accompanying
communications to any other address, we may accept and process the payment without losing any of our rights. We may deposit any such payment without that deposit effecting an accord and satisfaction with respect to the disputed amount.

Other Payment
Provisions

We can accept partial payments, late payments or payments with any restrictive writing without losing our rights under this Agreement. You should not send us a postdated check to make a payment. If you do so, we may decide to present the check
for payment before the date that you wrote on the check, or return it without processing it for payment to the person who sent it. We are not liable to you for any loss or expense arising from the action we decide to take in those circumstances.
We may adjust your Account as necessary to correct errors, to process returned and reversed payments, and to handle similar issues.

How Payments
Are Applied

Minimum Payment

If applicable, your Statement will show the Minimum Payment Due and the Due Date. To avoid a late payment fee, you must pay us at least this minimum payment amount by the due date provided in the Statement. In addition to the
minimum payment, you may pay all or part of the total balance on your Account. You must still pay at least the minimum payment amount each month, even if you paid greater than the minimum on the previous Statement. The entire balance
is immediately due and payable if your Account is 180 days past due, part of a bankruptcy proceeding or is otherwise charged off.
We may apply your Minimum Payment to your Account in any manner that we choose, including in a way that is most favorable to us. However, all payments are applied in accordance with applicable law.

Amounts in Excess
of Minimum
Payment
Prepayment

If you make a payment that exceeds your Minimum Payment, we will generally apply the excess amount to your Account balances in order of the highest Annual Percentage Rate to the lowest Annual Percentage Rate.

You may pay all or any part of your outstanding Account balance at any time. Payment of more than the Minimum Payment Due in one billing period (but less than the outstanding balance) will not relieve you of the obligation to pay the entire Minimum Payment
Due in any later billing period.

DEFAULT
The information below explains how you can avoid defaulting and what may happen if you do default.
ACTIONS THAT TRIGGER A DEFAULT

POTENTIAL RESULTS OF TRIGGERING A DEFAULT

To the extent permitted by applicable law, your Account will be in default if:
(a) You fail to make any required Minimum Payment by the corresponding Payment Due Date;
(b) Any payment you make is returned, not paid or cannot be processed and as a result, the required Minimum Payment is not made;
(c) Your balance at any time exceeds your Credit Limit;
(d) You (or any of you) fail to comply with any term of this Agreement;
(e) You (or any of you) die or become legally incompetent;
(f) You (or any of you) become insolvent or bankrupt;
(g) You (or any of you) give us false or misleading information or an unauthorized signature at any time;
(h) You (or any of you) fail to make any payment or perform any promise in any other agreement with us or on another obligation
you owe us; or
(i) Any judgment, lien, attachment or execution is issued against you or any of your property.

If you are in default, we may take the following actions without notifying you, unless the law says that we must notify you:
(a) Revoke your Account privileges temporarily or permanently and close your Account;
(b) Lower your Credit Limits;
(c) Declare your full Account balance to be immediately due and payable, subject to any notice and cure rights required by applicable law;
(d) Exercise any right or remedy under this Agreement and applicable law;
(e) Continue to charge you interest charges and fees as long as your balances remain outstanding, subject to our compliance with
applicable law, and;
(f) Charge you fees and expenses incurred when we try to collect on your Account, including, subject to applicable law, attorneys’ fees
and court costs. If you are a resident of Nebraska, Iowa or any other state that prohibits contracting for or charging attorneys’ fees
when you default, we will not charge you attorneys’ fees.
3

OTHER IMPORTANT INFORMATION AND TERMS
The section below contains additional important information and terms about how we can change the terms of this Agreement, and your rights under certain circumstances to reject the changes that we announce.
TOPIC

SUMMARY

ADDITIONAL DETAILS

When we replace your
Card with a Card having
a different number

Sometimes, we need to send you a new Card with a different Card number
to service your Account properly. Your existing balance will be transferred to
your new Account.

We subscribe to the Visa Account Updater Service (VAU Service). Under this Service, if you have given a merchant your Card number and authorized the merchant to bill your Account
periodically for recurring payments, or if you provided your Card number to a merchant so that you can conveniently make purchases from the merchant from time to time, and we issue
you a new Card number, your new Card number will automatically be sent to each merchant that subscribes to the VAU Service. Because not all merchants or billing entities subscribe to
the VAU Service, you should always check with each individual merchant that you have authorized to bill your Account to ensure that your payments will continue with your new Card
number.

We will send your new Card number to merchants who participate in a Card
update service and who you authorized to bill your Account automatically or
that you gave your Card number to because you regularly shop there and like
to use your Card to make purchases there.

You can instruct us not to provide your new Card number to merchants by opting-out of the update service. To opt out, call our Customer Service number, (800) 821- 5184.

Changes to this
Agreement

We have the right to make changes to this Agreement. We will notify you of
these changes as we are required to and in the time frame prescribed by law.

Subject to applicable law, including the Truth in Lending Act and Regulation Z: (i) you agree that we may, in our sole discretion, from time to time change any of the terms and conditions
of or add new terms and conditions to this Agreement, including changing the way that we compute interest charges, increasing or adding fees, or changing your Minimum Payment
Due; (ii) any such changes will generally be effective immediately unless we are required by applicable law or elect, in our discretion, to provide you with advance written notice of the
changes (and/or the reasons for the changes), afford you the right to reject the change and/or obtain your consent to the change (whether by written agreement, through obtaining an
Advance after a specified date or through some other means). In those instances, those changes will be effective if, when and as stated in the notice that we send you; (iii) any changes
may apply to your outstanding balance on the effective date of the change and to any future balances created after that date; and (iv) no change to any term of this Agreement will
excuse your obligation to pay all amounts owing under this Agreement.

Change of Address

If your name or address changes, please notify us of the change by writing to
us on a separate sheet at Card Services, P.O. Box 419734, Kansas City, Missouri
64141-6734.

We need information about you to manage your Account. The information we need includes:
(1) your legal name;
(2) a valid U.S. mailing address and residential address (if different);
(3) your date of birth;
(4) your Social Security Number or other government identification number;
(5) your telephone number(s); and
(6) the amount of income that is available to you and the source of that income.
You must tell us when this information changes. Please update your address in the manner provided on your Statement. You may also update some of this information by logging
onto your Account on our Online Banking website or by calling one of our representatives at the telephone number provided on your Statement or on the back of your Card. We
may require you to provide additional documents that are acceptable to us to verify this information or any changes. We have the right to restrict or close your Account if we
cannot verify your information or if you do not give us additional information as we requested.

Monitoring/Recording
of Telephone Calls

We, and other parties we designate, can monitor and record our telephone
conversations with you regarding your Account.

You consent to and authorize us, any of our affiliates, or any third party we designate to monitor and/or record any of your telephone conversations with our representatives or the
representatives of any of those companies regarding your Account.

Reporting Information
to Credit Bureaus and
other entities; Identity
Theft

We will report information about your Account to credit bureaus and obtain
and use credit and income information about you from consumer (credit)
reporting agencies and others as the law allows. If you ever discover what
you believe to be an inaccuracy in the information that we report to credit
bureaus, you must notify us. Use the address provided under the heading
“Other Customer Service Information” to send us a notice that you believe we
have reported information inaccurately about your Account.

We may report information about your Account to other creditors, other financial institutions and credit bureaus. In addition, we may provide personal information about you to
Visa USA (as applicable), its members or their or our respective contractors for the purpose of providing emergency cash and emergency card replacement services, to fulfill any
rewards you earn if you participate in our rewards program , or to provide any other Account benefit for which you are entitled.

If a name other than UMB Bank appears on the front of your Card, your Card is
issued as part of a co-brand relationship between UMB Bank and the company
shown on the Card and you consent to our sharing information about your
Account with that company.

Late payments, missed payments or other defaults on your Account may be reflected in your credit report. Information we provide might appear on your and the Authorized
Users’ credit reports. This could include negative information if you do not comply with the terms of this Agreement. You have the right to dispute the accuracy of information
we have reported. If you believe that any information about your Account that we have reported to a credit bureau is inaccurate, or if you believe that you have been the victim
of identity theft in connection with your Account or in connection with any other loan or extension of credit made by us, write us at the address given under the paragraph
titled “Other Customer Service Information” below. Please include the heading “Attn: Fraud/Dispute” when you address your envelope, and please include your name, address,
Account number, telephone number and a brief description of the problem. If available, please include a copy of the credit report in question. If you believe that you have been
the victim of identity theft, you should send us a police report or written statement in a form we provide you alleging that you are the victim of identity theft for a specific debt.
Once we receive such documentation, we will cease all debt collection activity until we have reviewed the materials, determined that the debt is still collectible, complied with all
obligations under federal law and sent you a written notice describing the basis for our determination.

Liability

We are generally not liable for any injuries, accidents, losses, claims, expenses,
inconveniences, costs or damages you sustain as a result of our failure to
honor your Card.

We have no responsibility if anyone fails to honor your Card for any reason or for any retention of your Card by any machine, merchant, financial institution or any other person.
We have no responsibility for any merchandise purchased or services rendered to you through the use of your Card, except for liability that is specifically imposed on us by law.
Subject to the rights granted to you by any applicable law, including the Fair Credit Billing Act, you agree we are not responsible for any claim you might have regarding the
purchases of goods or services made with your Card and you agree to assert only against the seller of the merchandise or services, and not against us, all defenses, rights and
claims which you may have relating to goods or services purchased through the use of your Card.

Bankruptcy Notification

You must inform us if you declare bankruptcy.

All bankruptcy notices and related correspondence to us must be sent to us at the address for payments under the paragraph titled “Other Customer Service Information” below.
Please include the heading “Attn: Bankruptcy Notice” when you address your envelope.

Governing Law

This Agreement is governed by Missouri and federal law and, with respect to
fees and charges other than interest, by Nebraska law.

This Agreement, your Card, your Account and all transactions hereunder are governed by Missouri and federal law. The fees and charges that apply to your Account (other than the
amount of the monthly interest that is calculated by applying an interest rate to an Average Daily Balance) will be governed by Nebraska law, as authorized by Missouri Revised
Statutes Section 408.145. The applicable statute of limitations period for all provisions and purposes under this Agreement (including the right to collect debt) will be the longer
period provided by Missouri or the jurisdiction where you live.

Severability

The Agreement remains valid even if any provision is unenforceable.

If any provision of this Agreement is found to be invalid or unenforceable under any law, rule or regulation, that does not affect the validity or enforceability of any other provision
of this Agreement.

Assignment

We may sell, assign or transfer this Account, Account balance, or any of our
rights or obligations under this Agreement, without notice to you or your
consent, but you may not do so.

You may not sell, assign or transfer your Account or any of your rights and obligations under this Agreement. However, we may sell, assign or transfer your Account, or any balance
due thereunder, and/or any of our rights and obligations under this Agreement, to a third party without prior notice to or consent by you. Should we do so, then to the extent of
any such sale, assignment or transfer, that third party will take our place in this Agreement. You must pay them and perform all of your obligations to them and not us. If you
pay us after you are informed or learn that we have transferred your Account or this Agreement, we can handle your payment in any way we think is reasonable. This includes
returning the payment to you or forwarding the payment to the other company or person.

Closing Your Account

We may close or suspend your Account and your right to obtain credit from
us. We may do this at any time and for any reason, permitted by law, even
if you are not in default. A suspension of your Account might be permanent
or temporary.

We reserve the right to close your Account and permit no further Advances to be made on the Account at any time, for any reason or no reason, without prior notice to or consent
by you.
You may ask us to close your Account by calling or writing us as described on your Statement. If you use your Card or charges post to your Account after you ask us to close it, we
may keep it open or reopen it.
If your Account is closed or suspended for any reason, you must stop using your Card. You must also cancel all billing arrangements that use the Account to make a payment. We
will not do this for you. If we close or permanently suspend your Account, you must also destroy all Cards. You must still pay us all amounts you owe on the Account, even if they
are charged after your Account is closed or suspended.

Lost or Stolen Cards;
Unauthorized Use

If you notice the loss or theft of your credit card or a possible unauthorized
use of your Card, write to us immediately at: Card Services, P.O. Box 419734,
Kansas City, MO 64141-6734, or call (800) 821- 5184. Telephoning us will not
preserve your Billing Error Rights.

You will not be liable for any unauthorized use that occurs after you notify us. If your Account was opened primarily for personal, family or household purposes, or if you are an
employee of a business and your Card was issued in connection with that business and related activities, you will not be liable for any unauthorized use that occurs before your
notice to us. If those exceptions do not apply, your liability for unauthorized use that occurs before you notify us will not exceed $50.
In general, when the Card is used for a transaction (other than a transaction on a commercial card), you have no liability. You must promptly report the claim to us, and you must
not have acted grossly negligently or fraudulently in handling your Card.
If we reimburse your Account for unauthorized charges made using your Card, you agree to help us investigate, pursue, and get reimbursement from the wrongdoer. Your help
includes giving us documents that we ask for and that are acceptable to us.

4

TOPIC (CONT.)

SUMMARY (CONT.)

ADDITIONAL DETAILS (CONT.)

Other Customer Service
Information

For billing errors or disputes:
Card Services
P.O. Box 419734
Kansas City, MO 64141-6734
To make a payment:
Card Services
P.O. Box 291736
Kansas City, MO 64121-9736
To reach our Customer Service representatives:
(800) 821-5184 or from the Kansas City area (816) 843-2000

If you want to send us notices of billing disputes, or mail us payments, or reach our
Customer Service representatives by phone, please use the information provided in the
column to the left.

We will consider a notice to be effective when we receive and have had a reasonable
opportunity to act on such notice. Any written or electronic correspondence we send
to you will be effective and deemed delivered when sent in accordance with any
authorization for electronic communications you have agreed to, or when mailed to
you at your mail address as it appears on our records.

Online banking website address: www.cardcenterdirect.com
No Security Interest

This credit is not secured by any collateral.

The credit extended under this Agreement is not secured by any collateral, even if other agreements which you may have executed would otherwise secure it. We waive, but only
with respect to indebtedness arising under this Agreement, any security interest which may otherwise secure such indebtedness.

Rewards

Your Account might provide you with the opportunity to earn rewards.

If your Account provides you with the opportunity to earn rewards, we will separately provide you with information about your rewards. We will include on your Statements all
rewards you have earned from us. It might take up to two billing periods for your earned rewards to appear on your Statement.

Force Majeure

When circumstances are beyond our control.

From time to time, due to circumstances beyond our control (such as system failures, fires, floods, natural disasters, or other unpredictable events), our services might be unavailable.
When this happens, you might be unable to use your Card or obtain information about your Account. We will not be responsible or liable if that happens.

Using a PIN

We may give you a personal identification number (PIN). For security reasons,
you might have to provide the PIN before you are able to complete some
transactions using the Card.

With a PIN, you may use your Card to: (1) obtain cash from certain automated teller machines (ATM) or (2) make purchases at certain merchant or retailer point-of-sale devices
(POS). You may do these things if the ATM or POS requires entry of a PIN and displays the logo of the Payment Card Network on your Card. We will treat all ATM transactions as
Cash Advances and all POS transactions as Purchases.
You should keep your PIN secure and not write it down, give it to anyone, or keep it with your Card. If you lose your Card or believe that someone has gained unauthorized access
to your PIN, you must contact us immediately.

Merchant Refunds

When you receive a refund from a Merchant.

If you are entitled to a refund for goods or services purchased with your Card, you will accept these refunds as credits to your Account. We do not control when a merchant sends us
your refund. We will also have a reasonable amount of time after we receive your refund to process it.

Credit Balances

When you have a credit balance on your Account.

We may reject and return to you any payment that creates a credit balance on your Account. Any credit balance we allow will not be available until we confirm that your payment
has cleared. We may reduce the amount of any credit balance by any new amounts billed to your Account. You may contact us as provided on your Statement and request a refund
of any available credit balance. If you contact us in writing, we will refund your credit balance within 7 Business Days from our receipt of your written request.

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FURTHER USE This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find a Mistake On Your Statement. If you think there is an error on your Statement, write to us at: Card Services, P.O. Box 419734, Kansas City, MO 64141-6734.
When you write us, please give us the following information:
 Account information: Your name and account number.
 Dollar amount: The dollar amount of the suspected error.
 Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
 Within 60 days after the error appeared on your Statement.
 At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us at (800) 821-5184, or from the Kansas City area, call (816) 843-2000, but if you do, we are not required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter. When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
 We cannot try to collect the amount in question, or report you as delinquent on that amount.
 The charge in question may remain on your Statement, and we may continue to charge you interest on that amount.
 While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
 We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
 If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
 If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a Statement of the amount you owe and the date the payment is due. We may then report you as delinquent if you do not pay
the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you will refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases.
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or
if we own the company that sold you the goods or services).
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the above criteria are met and you are still dissatisfied with the purchase, contact us in writing at: Card Services, P.O. Box 419734, Kansas City, MO 64141-6734.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our decision. At that point, if we think you owe an amount and do not pay, we may report you as delinquent.

5

